                         OFFICE OF THE INSPECTOR GENERAL
                         CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                          PREAUDIT SURVEY OF THE
                    OREGON COMMUNITY SERVICE COMMISSION

                              OIG Audit Report Number 0 1-03
                                      July 17,2000




                                        Prepared by:

                                       KPMG LLP
                                   2001 M Street, N.W.
                                  Washington, D.C. 20036

                            Under CNS OIG MOU # 98-046-5003
                               With the Department of Labor
                               DOL Contract # J-9-G-8-0022
                                    Task # B9GOV201




This report was issued to Corporation management on October 16, 2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than April 16, 2001, and complete its
corrective actions by October 16, 2001. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                            Pre-Audit Survey of the
                                     Oregon Community Service Commission
                                               Table of Contents



RESULTS IN BRIEF ....................................................................................................................... 1

BACKGROUND .............................................................................................................................. 2

OVERVIEW OF THE OREGON COMMISSION......................................................................... 3

OBJECTIVES. SCOPE AND METHODOLOGY .........................................................................4

FINDINGS AND RECOMMENDATIONS .................................................................................... 6

APPENDIX A. COMMISSION FUNDING: INCEPTION THROUGH 1999-2000.................. A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................ B .1

APPENDIX C. OREGON COMMUNITY SERVICE COMMISSION'S RESPONSE .............C .1

APPENDIX D. CORPORATION RESPONSE ...........................................................................D . 1
                                                                                               CORPORATION
                                Office of Inspector General
                      Corporation for National and Community Service                           FOR NATIONAL


                                   Pre-Audit Survey of the
                            Oregon Community Service Commission
                               OIG Audit Report Number 01-03


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
During fiscal year 1999, CNS OIG received reports of serious financial management problems at the
Oregon Community Service Commission. We provided that information to the Corporation
management. Corporation management responded to the information with visits by Corporation staff
and technical assistance providers.
During fiscal year 2000, CNS OIG engaged KPMG LLP to perform a pre-audit survey of the Oregon
Community Service Commission to provide a preliminary assessment of the Commission's subgrantee
selection, fiscal administration, monitoring, and training and technical assistance processes, and to
determine the extent to which its financial records could be audited. The survey revealed serious
deficiencies in the Commission's fiscal administration and monitoring functions for which corrective
actions have only recently been implemented, and that not all of the Commission's corrective actions
have been effectively implemented. Nonetheless, KPMG concluded that the Commission's records can
be audited. KPMG recommended a full scope audit of CNS funding for all program years.
This pre-audit survey report includes recommendations for improvements in all of the areas covered by
the survey. CNS OIG has reviewed the report and work papers supporting its conclusions. We agree
with the findings and recommendations presented.
Responses to the report by the Oregon Community Service Commission and Corporation for National
Service are included as Appendices C and D, respectively. The Corporation's response indicates that
CNS plans to request semi-annual reports from the Commission on its actions to correct the conditions
reported and that it agrees with the recommendation that CNS perform annual site visits to the
Commission.
 The Oregon Commission's response describes its corrective actions. OIG and KPMG will assess and
 report on the reported corrective actions during the full scope audit of the Commission which has already
 begun. We presently expect to issue the audit report (01-04) during the third quarter of this fiscal year.




                                                                                           Inspector General
                                                                                           1201 New York Avenue, NW
                                                                                           Washington, LIC 20525
               2001 M Street, N.W.
               Washington, D.C. 20036




July 17,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Oregon Community Service
Commission (the Commission). The primary purpose of this survey was to follow up on
information provided to the Corporation by the Commission that indicated the Commission had
serious financial management problems, and to determine whether the Commission was
auditable. We were to report our findings to the Office of Inspector General and the
Corporation.

Results in Brief

Our pre-audit survey procedures, including interviews with current Commission management,
revealed the following:

        The Commission self-reported to the Corporation in May 1998, that subgrantees were
        holding excess amounts of cash drawdowns.
        In January 1999, the Executive Director became fully aware of the Commission's
        responsibility to monitor subgrantees, as a result of attending a Corporation training
        seminar.
        Prior to December 1997, the Commission failed to submit required FSRs.

Although proactive reporting of financial management problems did not occur until after the
current Executive Director was hired in February 1998, we concluded that the Corporation
should have been aware of these problems. In May 1998, the Corporation dispatched a
consultant to the Commission to help the Commission begin to make improvements in its cash
management process. However, we saw no other evidence that the Corporation took any action
to hold the Commission fiscally accountable until June 1999, when it placed the Commission on
a pre-approval basis for drawing down grant funds as a result of problems identified during site
reviews conducted during March and April, 1999.

Based on the results of the limited procedures we performed, our preliminary assessment is that
the Commission is auditable for all open program years, although the Commission's ability to
locate supporting documentation and provide explanations for activity prior to June 1999 may be
limited. Therefore, we recommend the performance of a full scope audit at the Commission for
program years 1994-95 through 1999-2000. Our limited procedures showed an improvement in
the development and implementation of policies and procedures during 1999, which impacted
and strengthened the controls for 1999-2000. However, we believe the full scope audit should
include this program year to ensure that newly developed controls are functioning effectively to
prevent significant noncompliance with laws, regulations and grant agreements.



                                                                         1

1111             KPMG LLP KPMG LLP a U S lhmrred a b t y partnersh~p1s
                 a member of KPMG lnternatlonal a SWISS association
The section below entitled Findings and Recommendations discusses our observations and sets
forth our recommendations for improvements regarding:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its ArneriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

The conditions presented in this section will be taken into consideration in determining the
extent of audit procedures to be performed during the full scope audit of the Commission as
recommended above.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission. Given the significant grants management issues that the Commission has faced
and the guidance it currently seeks to improve controls further, the Corporation should perform
site monitoring visits at the Commission at least annually for the next three years.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Oregon Commission

The Oregon Community Service Commission, located in Portland, Oregon, has received federal
grant funds from the Corporation for National and Community Service since program year 1994-
95. The Commission was established as a division of the Oregon Department of Community
Colleges and Workforce Development (DCCWD), through state legislation enacted in 1994, to
administer grants under the National and Community Service Trust Act of 1993.

The Commission consists of 11 Governor appointees. Commissioners are appointed for three-
year terms. From the Commission's inception through June 30,2000, DCCWD served as the
Commission's fiscal agent. On July 1,2000, the Oregon Department of Community Housing
became the Commission's new fiscal agent. In addition to its fiscal agent, the Commission also
uses Portland State University (PSU) as a paying agent.

Through June 30,2000, the Commission had a staff of 3 full-time and 1 part-time personnel
working under an Executive Director. PSU funded three of the positions and DCCWD funded
two positions. As of June 30,2000, two of these positions became vacant with the resignation of
the Administrative Officer and the Special Projects Coordinator (both funded by PSU).

In addition to drawing federal funds and disbursing funds to Commission subgrantees, DCCW
handles the financial accounting, including payroll and travel, for the two positions funded
through that department and all non-operating expenses of the Commission, such as
Commissioner travel. Likewise, PSU typically accounts for the payroll and travel expenses of
the personnel positions funded through it and all daily operating transactions originated by the
Commission.

As part of the State of Oregon, the Commission is annually subjected to statewide OMB Circular
A-133 audits. However, prior to fiscal year 1999, the State did not separately identify and
include the Commission funding in its annual A-133 audits. For the fiscal year ended June 30,
1999, the AmeriCorps grant was tested as a major program. As a result of this audit, one
material weakness and four reportable conditions were identified related to the Commission's
administration of the AmeriCorps grant, as follows:

                 Material Weakness - The Commission did not begin monitoring subrecipients
                 until Spring 1999.
                 Reportable Conditions - (1) The Commission's fiscal agent did not separately
                 report the financial information for inclusion in the State's Schedule of
                 Expenditures of Federal Awards; (2) the Commission distributed funds to
                 subrecipients in advance of related program expenditure; (3) the Commission did
                 not perform on-going risk assessments of the AmeriCorps subrecipients; and (4)
                 the password that the Oregon Department of Education used in its drawdown
                 procedures for federal funds had not been changed since 1994.
The Commission provided us with the following information regarding funding received from
the Corporation since its inception:

                                                                      Number of Sub-
                                                                     grantees Subject to
                             Total Corporation      Number of           A-133 idi it
         Program Year            Funding*           Submantees        Requirements**
           1994 Start-up
             Funding            $ 178,800               None                None




*    Amounts do not include carryover funding for Program Years 1997-98, 1998-99, anr
     2000 of $42,966, $270,080, and $13 1,184, respectively.
**   Determination is based on information maintained at the Commission.

Appendix A contains more detailed information on funding received from the Corporation.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering its AmeriCorps grants, for monitoring the fiscal activity of
subgrantees, and to determine the auditability of the Commission in addition to providing a
preliminary assessment of:

     the adequacy of the pre-award selection process;
     the fiscal procedures at the Commission;
     the effectiveness of monitoring of its Corporation-funded subgrantees, including AmeriCorps
     Member activities and service hours; and
     the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission. Our survey included the following procedures:

     reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
     Manual for Commission Executive Directors and Members, and other information to gain an
     understanding of legal, statutory and programmatic requirements;

     reviewing OMB Circular A-133 reports and current program year grant agreements with the
     Commission;
   obtaining information from Commission management to document the Corporation grant
   funding for program years 1994-95 through 1999-2000; and

   performing the procedures detailed in Appendix B over the Commission's internal controls,
   selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
   and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all preliminary findings identified to
date with Commission management during a site visit exit meeting on June 23,2000. We
discussed certain additional findings with the Commission subsequent to that date. We also
communicated with the Commission to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report. The Commission
was provided a copy of all findings included herein.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission or its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.
Findings and Recommendations

The Commission is in the process of documenting its policies and procedures relating to the
selection of subgrantees, administration of grant funds, evaluation and monitoring of
subgrantees, and providing training and technical assistance to subgrantees. As this project is
being completed, we recommend that the Commission consider the recommendations discussed
below that we developed based on specific findings within each area.

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Commission has developed and implemented
various procedures to meet this responsibility. However, these procedures were not consistently
applied to all program years. Because of funding constraints in program years 1996-97 and
1999-2000, the Commission elected to offer funding only to existing programs to ensure
programs in good standing were not eliminated or penalized for the lack of new or additional
funds.

Even though the selection process may only encompass renewal applications from existing
subgrantees, the Commission does require the peer reviewers who evaluate these applications to
sign conflict of interest statements before the commencement of the selection process. In
addition, beginning with the 2000-01 selection process, peer reviewers use a standard form,
which includes an area for the assessment of financial systems and organizational capacity, to
evaluate each applicant.

We identified the following areas for improvement within the selection process.

        Assessment of Applicants' Financial Systems during the Selection Process

Prior to the 2000-01 selection process, peer reviewers did not consider the adequacy of the
applicants' financial systems during the Commission's subgrantee selection process. The
application form provided by the Corporation and used prior to the PY 2000-01 selection process
did not specifically address the applicant's financial system. Commission selection procedures
also did not require applicant's to provide information related to their financial systems. As a
result, grant funds may have been provided to organizations that did not have the financial
systems in place to properly account for those funds or to ensure compliance with grant
requirements.

        Missing Documentation Related to Rejection of Funding Decisions

We selected a sample of four applicants, one each from program years 1994-95 through 1998-99
for which funding had been denied by the Commission. For three of these items, the
Commission was unable to provide all requested documentation related to the denial of funding
decision. Documentation to support communication of one funding rejection and detailing the
Commission's rationale for rejection in the case of two of the others was not available. As a
result, if one of these rejected applicants questions the reason for rejection, the Commission has
no records to reference which support its decisions.
        Composition of the Board of Commissioners

The composition of the Board of Commissioners does not appear to be representative of the
population of the State of Oregon. Currently, nine of 11 Board members reside in the Salem and
Portland areas. The remaining two Board members are from southern Oregon. Although the
Board members do not serve as panelists for selection of subgrantees, they have significant
influence in the selection of the panelists. The needs of the more rural areas of the State may not
be adequately addressed since representatives fiom these areas are not included in the decision-
making processes.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

    Develop and implement procedures to ensure that adequate documentation is maintained to
    support funding decisions and communication of those decisions to applicants.

    Review the current composition of the Board of Commissioners and restructure it, if
    necessary, to ensure that all areas of the State are adequately represented.

Administering Grant Funds

Guidelines to be followed in the grant administration process for Corporation grantees are set
forth in A Reference Manual for Commission Executive Directors and Members. Guidance is
provided in the manual for performance of general administrative activities at the Commission
level, and for evaluation of subgrantee administrative activities. Section 4.3 of the manual states,
"Commissions must evaluate whether subgrantees comply with legal, reporting, financial
management and grant requirements and ensure follow through on issues of non-compliance."

We identified the following areas for improvement related to the administration of grant funds at
the commission level and to the evaluation of subgrantee compliance with reporting and other
administrative grant requirements.

        Adequacy of Staf$ng Levels Beginning July 1, 2000

As of July 1, 2000, the Commission lost two staff members, the Administrative Officer and
Special Projects Coordinator. The Commission currently does not plan to immediately fill these
positions. Instead, other staff members will temporarily absorb the duties and responsibilities of
these positions.

The duties of the Administrative Officer are integral to the Commission's success in achieving
its mission, and include such tasks as reconciling the financial activities of the Commission's
two fiscal entities (i.e., DCCWD and PSU) and performing fiscal monitoring of subgrantees.
The Special Projects Coordinator's duties are equally important; this position is responsible for
managing the Disability, Promise Fellows and other grant programs and organizing training
activities. Failure to maintain adequate staffing levels may lead to the overburdening of the
remaining employees, inadequate and/or untimely completion of assigned duties, performance of
incompatible duties for internal control purposes, and ultimately to additional turnover which
might place the ongoing activities of the Commission at risk.

        Failure to Submit FSRs for Administrative, PDAT and Disability Grants

Prior to December 1997, the Commission did not submit FSRs for Administrative, Program
Development and Training and Disability grants. Since that time, the Commission has prepared
and submitted restated FSRs to the Corporation for the periods previously omitted.

        Lack of Evidence of FSR Review, Including Matching Recalculation

Commission procedures require that subgrantee FSRs be reviewed upon receipt and that
matching requirements be recalculated at that time. However, prior to March 1998, there is no
evidence that Commission personnel performed this function. Performance of this review is an
essential control in the detection and correction of errors on FSRs. Documentation of the review
process fixes responsibility for its performance and reduces the risk that errors on FSRs may
exist and remain undetected. Beginning in March 1998, the Commission began using a formal
review form to document the FSR review process.

        Disbursement of Funds to Subgrantees

Prior to March 1998, the Commission awarded funds to subgrantees on a pro rata basis, either
quarterly or on another basis determined by the subgrantee, instead of on a reimbursement or
proximate need basis. As a result, subgrantees likely maintained cash on hand that exceeded
their immediate cash flow requirements for AmeriCorps program expenditures.


        Proper Authorization for the Disbursement of Funds

The Commission does not have procedures in place to ensure that disbursements of funds have
been properly authorized by responsible personnel. The fiscal agent, acting on orders received
from the Commission, draws down federal funds and disburses them to the appropriate
subgrantees. However, clear guidance on who has the proper authority to direct the draw downs
is not communicated to the fiscal agent, thus increasing the risk that funds may be drawn down
for other than authorized purposes.

         Timely Drawdown of Federal Funds

The Commission does not have adequate procedures in place to ensure the timely drawdown of
federal funds. As of the date of this report, the Commission's fiscal agent has not drawn down
federal funds to reimburse the Commission for administrative expenses since August 1999. The
consequences of not having drawn down funds timely are: (1) the State of Oregon, in effect, is
funding all Commission activities; (2) the Commission's current inability to apply for additional
Corporation grant awards because funds remain in the current draw account, even expenses have
been incurred in excess of the current balance of the draw account; and (3) the Corporation's
record of grant advances to the Commission may be misstated for financial reporting purposes.
       Lack of a Comprehensive Agreement with Fiscal Agent

In the Commission's agreement with its first fiscal agent, DCCWD, the Commission did not
establish formal policies and procedures to ensure a mutually productive and satisfactory
working relationship. For example, formal procedures were not implemented to:

   ensure that draw downs were properly authorized by appropriate Commission personnel;
   ensure the retention of the Commission's documentation maintained by the fiscal agent,
   permit access by Commission personnel to these records, or require the availability of fiscal
   agent personnel for audits or reviews;
   resolve disputes between the Commission and its fiscal agent (i.e., grievance procedures);
   and
   provide for open channels of communication between the Commission and its fiscal agent to
   ensure an effective exchange of information to address grant administration issues.

The lack of a comprehensive agreement has led to inconsistencies in grants administration. As
of June 30,2000, the Oregon Housing and Community Service Department (OHCS) became the
fiscal agent of the Oregon Community Service Commission. The new agreement contains more
descriptive language regarding roles and responsibilities of both the DCCWD and the OHCS.

        Written Policies and Procedures

The Commission's fiscal policy manual developed in September 1999 relates to Commission
staff members and programs receiving AmeriCorps competitive and formula funding. However,
formal policies have not yet been developed for other grant programs such as Learn and Serve,
Planning Development and Training, Disability and Administrative grants.

        Classijkation and Support for Administrative Grant Expenses

The Commission could not provide adequate support for one recurring type of administrative
grant expense selected for review (charges allocated to the Commission by its fiscal agent for
amounts related to the fiscal agent's agreement with the Oregon Department of Education for the
drawing of federal funds). The item selected for review amounted to $13,964 and was purported
to represent the annual charge for services provided. Because the documentation provided by the
Oregon Department of Education did not adequately demonstrate how the amounts charged to
the Commission were derived, we could not ascertain if the charges were reasonable. Inadequate
supporting documentation may result in Corporation funds being used for unallowable expenses.

Additionally, the Commission did not properly classify 2 of 16 administrative grant award
expenses selected for review in its general ledger. Misclassifications may lead management to
make erroneous conclusions based on the information provided, potentially resulting in
noncompliance with grant provisions and inaccurate reporting of program activity to the
Corporation.
        Timeliness of Receipt of FSRs

The Commission had not routinely date-stamped FSRs from subgrantees as they are received.
Therefore, the Commission cannot verify if these documents were submitted timely in
compliance with the grant agreement. As a result, subgrantee FSRs may have been submitted
late. We noted that the Commission began utilizing the Web Based Reporting System which
electronically records the date subgrantees submit their FSRs to the Commission during the fiscal
year ending September 30, 2000. As a result, no recommendation is required related to date
stamping of FSRs currently being received.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Determine and maintain realistic staffing levels based on funding, related duties and
    responsibilities. As an alternative to hiring additional personnel, the Commission could
    amend the current agreements with either of its paying agents to expand their scope of
    services to include performing the duties previously performed by the Administrative
    Officer. These duties include periodically reconciling Commission's expenses processed by
    both of its paying agents, performing subgrantee fiscal monitoring and ensuring compliance
    with relevant Corporation, grant and federal guidance for PDAT, Administrative and
    Disability grants.

    With respect to the duties previously performed by the Special Projects Coordinator, we
    recommend that the Commission consider staffing this position at an appropriate FTE level
    or contracting for the related services. In the absence of hiring additional staff, we
    recommend that the Commission segregate incompatible accounting functions as much as
    possible.

    Continue the development and implementation of procedures to review subgrantee FSRs,
    recalculate matching requirements and formally document the review procedures performed.

    Continue developing formal policies and procedures to encompass all grants awarded by the
    Commission, including Administrative, Program Development and Training and Disability.

    Evaluate the effectiveness of the new interagency agreement with OHCS after six months to
    determine whether any amendments are necessary to ensure a smooth working relationship
    between the Commission and its fiscal agent.

    Meet with the Oregon Department of Education to obtain an understanding of and support
    for the amounts charged to the Commission for services provided in drawing down federal
    funds for program expenses. Based on the information obtained, ascertain whether any
    adjustments should be made to reported allowable grant expenses and take appropriate
    corrective action.

    Establish a process for review by a second person of the propriety of expenses as classified
    in the general ledger. Any discrepancies noted should be corrected on a timely basis to
    ensure the accuracy of grant expense information reported to the Corporation.
   Establish a process to conduct formal, periodic staff meetings with the fiscal agent to address
   important grant administration issues as they arise.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. Prior to February 1998, no documentation exists to support any site
visits to subgrantee locations the Commission may have performed. Between February and
December 1998, the Commission was understaffed and experienced a significant amount of
turnover. During that time, no on-site monitoring visits occurred. Instead, the Commission
relied on telephone calls and periodic meetings with subgrantee Program Directors to address
programmatic concerns and issues.

We identified the following areas for improvement related to the evaluation and monitoring of
subgrantees.

        Semi-annual Site Visits

Beginning in program year 1998-1999 (June 1999), the Commission established a policy to
perform semi-annual site visits for each subgrantee using a standard monitoring tool. Actual
visits to subgrantee locations did not commence until November 1999. Such visits were to
include visits to program locations on a sample basis to observe Member activities. After each
visit, the site monitors were expected to notify the subgrantee of the results of site visits,
including strengths, challenges, recommendations and any necessary follow-up requirements.
However, this policy was never fully implemented as designed.

        Improved Documentation of Site-Monitoring

As noted above, the Commission developed and began using a standard site monitoring tool to
provide reasonable assurance that subgrantees were complying with federal and grant
requirements and that the review was adequately documented. However, the use of this tool
does not currently provide for adequate documentation of the sample items selected for review,
the rationale for selecting the sample items, or a provision for review of Member timesheets and
expenses. Improved documentation of procedures performed during on-site monitoring ensures
that procedures are performed consistently across all subgrantees and that significant areas of
internal control and compliance, such as Member time and expense reporting, are addressed.
Additionally, it enables Commission management to evaluate the monitor's rationale and place
greater reliance on the conclusions reached.

        Review of Subgrantee OMB Circular A-133 and Other Reports

OMB Circular A- 133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. In 1999, the Commission
formally implemented procedures to require receipt and review of OMB Circular A- 133 or other
audit reports. Prior to 1999, there is no evidence that subgrantees' reports were routinely
requested or that they were reviewed by the Commission. Without adequate review and follow-
up on matters contained in OMB Circular A-133 audit reports, control weaknesses or instances
of material noncompliance noted and disclosed in such audit reports may continue to occur and
not be corrected timely.

       Follow-up Procedures on Deficiencies Noted during Site Monitoring Visits

The Commission began performing site monitoring visits in November 1999. For two of four
subgrantee files reviewed for evidence of site monitoring since that date, there is no
documentation of the follow-up of deficiencies noted during those visits.

Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to document the review and testing of subgrantees'
    Member timesheets and expense documentation during financial site visits. These
    procedures should require identification of selection criteria and items selected for testing.

    Continue developing its OMB Circular A-133 audit report tracking database to provide
    reasonable assurance that the Commission receives and reviews the audit reports from all
    subgrantees subject to such audits, and follows up on any deficiencies noted in these reports
    in a timely manner.

    Obtain and review the most recent OMB Circular A-133 reports as a part of the compliance
    site visits for all subgrantees. If an OMB Circular A-133 audit is in process when the site
    visits occurs, the Commission should note this in an "outstanding reports" listing, which
    should be reviewed periodically during the year to ensure all OMB Circular A-133 reports
    are obtained and reviewed timely.

    Develop written policies and implement procedures to ensure that adequate corrective
    actions are taken in a timely manner when deficiencies are noted either by the Commission
    during site visits, or during review of OMB Circular A- 133 reports.

    Enforce current procedures requiring semi-annual site monitoring.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Commission to (1) identify training needs of subgrantees through
site visits, training evaluations, and need and resource assessment surveys; (2) notify subgrantees
of training programs; and (3) provide needed training to subgrantees. The Commission currently
uses the services of Northwest Regional Educational Labs (NWREL) to provide training to
Commission and subgrantee personnel. We identified no significant areas for improvement in
this area.

 However, in conversations with the Executive Director of the Commission, we understand the
 Commission is considering severing its relationship with NWREL and developing its own
 internal training program, in an effort to reduce costs. We recommend the Commission
determine the impact such a decision may have on the already strained resources of the
Commission staff. Before such action is taken, we also recommend focused attention be given
to developing an ideal course curriculum for Commission staff and subgrantees.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Oregon Governor's Community Service Commission, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.
                                                   Commission Funding                           Appendix A

                  The table below and the flowcharts on the following pages depict the Commission's funding
                  since 1994. We were unable to agree the funding amounts to the Commission's FSRs for (a)
                  1999-2000 because the final FSR for the program year had not been completed at the time of
                  field work and (b) previous program years because those FSRs had been prepared on a
                  cumulative, not program year, basis.



Funding Source and T v ~ e

CNS Formula Grant Funds

CNS Competitive Grant Funds

CNS Promise Fellows Funds

CNS Educational Only Awards

CNS Learn and Serve Funds

CNS Governor's Initiative Funds

CNS Make a Difference Day Funds

CNS Disability Funds

CNS PDAT Funds

CNS Administrative Funds

CNS Carryover Funds

State Matching Funds

  Total Funding
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by selection officials annually and maintained
by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B
   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                                                                                                   Appendix C
                        Oregon Community Service Commission Response

                    OREGON COMMUNITY SERVICE COMMISSION


September 22,2000


Luise S. Jordan
Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington DC 20525

Dear Ms. Jordan,

On behalf of the members of the Oregon Community Service Commission, I am pleased to provide our
response to the draft report on your pre-audit survey of our Commission.

As you will note, three general themes are reflected throughout our response. First, both paid staff and
Commissioners share a real sense of accomplishment in the progress we have made toward impeccable
grant management policies and procedures.

Second, we also share a commitment to continuous improvement in our work on behalf of the state of
Oregon.

Third, we want to recognize the assistance that we have received from the Corporation for National
Service Office of Grants Management, the Oregon Audits Division, and your audit team in our
restructuring efforts. Each of those units has provided valuable guidance and recommendations that have
been instrumental in the reinvention of the Commission.

 If you have any questions, or wish to discuss our response, please contact me at (503) 725-5903.

 Sincerely,



-jdizkilzkx
 Executive Dir tor



 Enclosure




              PSUlCSC 369 NH     PO BOX 75 1 Portland. OR 97207-075 1 (503) 725-5903 Toll Free 888-353-4483
                 Fax (503) 725-8335 TTD 1-800-735-2900 (TTY) Vo~ce1-800-735-1232 ernail: ocsc@pdx.edu
                                                                                         Appendix C
                      Oregon Community Service Commission Response
September 20,2000



Inspector General
Corporation for National Service


The members of the Oregon Community Service Commission, as well as its staff, welcome the
opportunity to respond to the Oregon Pre-Audit Survey report prepared for your office by KPMG and
forwarded to us for comment on August 25.

Response in Brief

The report clearly details the continuous improvement made by the Commission since rhe hiring of new
staff beginning in spring, 1998. Through a strong partnership between Commissioners and staff
members, each of the findings outlined by your audit team had already been identified as an area of
improvement. We are pleased that we have been able to gain significant strength in our ability to
manage federal grants, while continuing to operate our current programs at a highly professional level.

We believe that the report also reflects our commitment to continuous improvement and recognizes the
conscious decision made by Commissioners in January, 1999 to focus our efforts on strengthening the
grants management policies and procedures implemented by staff. We acknowledge the guidance
provided by the Office of Grants Management, Corporation for National Service, as well as the State of
Oregon Audits Division, and the KPMG audit team.

 At the same time, we continue to express our concern over the audit team's use of the Reference Manual
for Commission Executive Directors and Members as the source document for Corporation grants
 management guidance. This manual, which was developed outside the Corporation as a compilation of
 best practices, has never been vetted by the Ofice of Grants Management. Throughout our reinvention
 efforts, we have been repeatedly advised by the Corporation not to use the document as a source for
 regulations or Office of Grants Management recommendations. We do not believe that this is the
 appropriate document to be used by auditors when evaluating field level compliance with the
 requirements of the Corporation.

Our response to this report indicates that all of the recommendations have been reviewed. Most have
been fully implemented, while a few are still in process. We are pleased that we have been able to
continue our strengthening of sound management policies and procedures as a result of this review.

Response to Findings and Recommendations

Selecting Subgrantees

Recommendation I :
Develop and implement procedures to ensure that adequate documentation is maintained to support
funding decisions and communication of those decisions to applicants.
                                                                                         Appendix C
                    Oregon Community Service Commission Response

Commission Response:
The 2000-200 1 AmeriCorps application was the first open application process developed and managed
by our new staff. As part of that process, applicants were required to provide financial management
information in two formats. As part of the concept paper application phase, each applicant completed a
checklist assessment of its financial management capacity. These reports were reviewed by staff during
the applicant selection process. ,

As part of the full application process each applicant was required to complete a narrative annex
detailing their fiscal management policies and procedures. These were also reviewed by staff, and used
in consideration by the AmeriCorps Program Committee and the Commissioners during the selection of
the final formula portfolio applicants.

In the future, we will further refine the application packages. They will detail all elements considered
for funding recommendations and the methods by which those recommendations will be communicated
to all applicants, successful and unsuccessful. Basic elements of the application process will be included
in the Commission Policies and Procedures Manual. These will include the process for requesting
proposals, review procedures, appeal procedures, and procedures that will be used by the Commission to
communicate decisions to all applicants.

Recommendation 2:
Review the current composition of the Board of Commissioners and restructure it, if necessary, to
ensure that all areas of the State are adequately represented.

Commission Response:
The Commission has been working with the Office of the Governor Appointments Unit for the past nine
months to identify and recruit Commissioners representative of a broader geographical distribution of
the state. Representatives from the limited populations east of the Cascade Mountains are actively
sought by the more than 260 state Boards and Commissions serving the Governor. We are pleased to
have recruited a new Commissioner from central Oregon in early August and expect to continue our
efforts for expansion during the coming months.

Administering Grant Funds

Recommendation 3:
Determine and maintain realistic staffing levels based on funding, related duties and responsibilities.

Commission Response:
Prior to 1998, the Commission had always maintained a staff of three: Executive Director, Program
Assistant, and Office Manager. With the hiring of a new Executive Director, it became clear that
additional staff would be necessary to implement the Commission's strategic plan for reinvention. The
Special Projects Coordinator was hired with the specific responsibility for program support in fall, 1998.
When the limited term position was created, it was with the clear understanding that the position would
be reevaluated on June 30,2000.

The Administrative Officer position was also created on a limited term basis. It was originally designed
as a .5 FTE. Due to the complexity of reconstructing prior year records, it became a 1. FTE in spring,
1999, with the agreement that the position would be reevaluated in June, 2000.
                                                                                           Appendix C
                      Oregon Community Service Commission Response

With the close of the employee contracts in June, the Commission began a reassessment of the roles and
responsibilities of the staff. It has never been our intent to leave the positions unfilled, but rather to
evaluate and determine the most appropriate staffing levels and work plans to carry out our programs.
This evaluation also provides us with an opportunity to integrate the support provided by our new fiscal
agent, Oregon Housing and Community Services (OHCS), into our work plans.

Recommendation 4:
Continue the development and implementation of procedures to review sub-grantee FSRs, recalculate
matching requirements, and formally document the review procedures performed.

Commission Response:
With the implementation of the Web Based Reporting System (WBRS) in 1999, matching requirements
are automatically calculated by the system on each Periodic Expense Report (PER) which is required
monthly. These forms are monitored by staff when processing the Requests for Reimbursement
received from programs.

Recommendation 5:
Continue developing formal policies and procedures to encompass all grants awarded by the
Commission, including Administrative, Program Development and Training, and Disability.

Commission Response:
The move to a new fiscal agent will allow us to more formally integrate State of Oregon policies and
procedures into our Commission Policies and Procedures manual.

Recommendation 6:
Evaluate the effectiveness of the new interagency agreement with OHCS after six months to determine
whether any amendments are necessary to ensure a smooth working relationship between the
Commission and its fiscal agent.

Commission Response:
This evaluation has been scheduled.

Recommendation 7:
Meet with the Oregon Department of Education to obtain an understanding of and support for the
amounts charged to the Commission for services provided in drawing down federal funds for program
expenses. Based on the information obtained, ascertain whether any adjustments should be made to
reported allowable grant expenses and take appropriate corrective action.

Commission Response:
This meeting will be held as part of the formal closeout of the Administrative grant.

Recommendation 8:
Establish a process for review by a second person of the propriety of expenses as classified in the
general ledger. Any discrepancies noted should be corrected on a timely basis to ensure the accuracy of
grant expense information reported to the Corporation.
                                                                                           Appendix C
                     Oregon Community Service Commission Response

Commission Response:
This process has been established as part of the implementation of the transfer to our new fiscal agent,
OHCS.

Recommendation 9:
Establish a process to conduct formal, periodic staff meetings with the fiscal agent to address important
grant administration issues as they arise.

Commission Response:
As part of the transfer to a new fiscal agent, Commission staff have regularly scheduled meetings with
both management and fiscal administrative staff at Oregon Housing and Community Services.

Evaluating and Monitoring Subgrantees

Recommendation 10:
Develop and implement procedures to document the review and testing of sub-grantees' Member
timesheets and expense documentation during financial site visits. These procedures should require
identification of selection criteria and items selected for testing.

Commission Response:
During the 1999-2000 program year, all sites received a copy of the site monitoring tool. All sites were
reviewed based on this tool. Member timesheets were reviewed and each file review report documents
this review, which occurred for all programs. The Oregon Supplement to the 2000-2001 Program
Director's Manual defines specific site visit protocol that will be used during the semi-annual visits to
each program.                  .
Recommendation 1I :
Continue developing its OMB Circular A-133 audit tracking database to provide reasonable assurance
that the Commission receives and reviews the audit reports from all sub-grantees subject to such audits
and follows up on any deficiencies noted in these reports in a timely manner.

Commission Response:
The database and development of concurrent policies and procedures were completed in July, 2000.

Recommendation 12:
Obtain and review the most recent OMB Circular A- 133 reports as part of the compliance site visits for
all sub-grantees. If an OMB Circular A-133 audit is in process when the site visit occurs, the
Commission should note this in an "outstanding reports" listing, which should be reviewed periodically
during the year to ensure all OMB Circular A-133 reports are obtained and reviewed timely.

Commission Response:
Commission policies require the submittal of the most recent audit as part of the applicatiodrenewal
process. Review of these reports is conducted by the fiscaVadministrative staff and the report is shared
with the Program Director. Follow-up policies will mirror those of our new fiscal agent. It is
Commission policy that sub-grantee contracts not be issued to programs whose most current A-133 has
not been received and reviewed by the Commission staff.
                                                                                      Appendix C
                   Oregon Community Service Commission Response
Recommendation 13:
Develop written policies and implement procedures to ensure that adequate corrective actions are taken
in a timely manner when deficiencies are noted either by the Commission during site visits, or during
review of OMB Circular A- 133 reports.

Commission Response:
The Oregon Supplement to the 20'00-2001 Program Directors Manual includes written policies and
procedures on site visit follow-up and corrective action plans.

Providing Technical Assistance

Recommendation 14:
The Commission should determine the impact that a decision to sever its relationship with NWREL may
have on the already strained resources of the Commission staff. Before such action is taken, we also
recommend focused attention be given to developing an ideal course curriculum for Commission staff
and grantees.

Commission Response:
The evaluation of staffing needs and resources currently underway (see response to Recommendation 3)
is designed to determine the appropriateness of hiring a full-time Training Coordinator rather than
continue to contract with an outside agency. It has never been the intent of the Commission to add the
responsibility for training and special projects to the three permanent staff positions.

Course curriculum for Commission staff and grantees is well-defined by National Service Leadership
Institute (NSLI) of the Corporation for National Service. The Commission has worked actively to
ensure that all current state-funded program directors have participated in one or more NSLI training
events. As we have since 1995, we will continue to supplement National training with programs
designed to meet the specific needs of the programs operating in Oregon.

This year, we also partnered with the California Commission and other Pacific Cluster states to design
and conduct a formal training for new ArneriCorps program staff. In addition, we will be joining with
other Commissions in the Pacific Cluster, to develop an annual training program for Commission staff.
These efforts are part of our continuing commitment to program excellence throughout the state.
                                                                        Appendix D
                                 Corporation Response


MEMORANDUM

TO:
                                                                 AmeriC0q.m National Service   C 0 RP 0 R A T I 0 N
THRU:                                                                                          FOR N A T I O N A L

FROM:          Deborah R. Jospin, Director of ArneriCorp                                        SERVICE
               Bruce H. Cline, Director of Grants Manageme

DATE:         September 25,2000

SUBJECT:       Response to the Draft Audit Report 00-40 Pre-Audit Survey of the
               Oregon Community Service Commission


We have reviewed the draft report on your pre-audit survey of the Oregon Commission.
The draft audit report includes the following recommendation to the Corporation:

        "Given the significant grants management issues that the Commission has faced
        and the guidance it currently seeks to improve controls further, the Corporation
        should perform site monitoring visits at the Commission at least annually for the
        next three years."

The Corporation agrees with the recommendation. As set forth in memos to the Office of
Inspector General from Deb Jospin dated March 23, 1999 and June 20, 1999, the
Corporation has been actively engaged in supporting the Oregon Commission in
identifying and correcting problems with its fiscal management. In April 1998, a
representative from Walker and Co. provided technical assistance to the Commission. In
May 1998, the Senior ArneriCorps Program Officer conducted a site visit to the
Commission in conjunction with a TASC consultant. In January 1999, the Commission
attended the Corporation's Financial and Program Management and Accountability
Seminar. In March 1999 and April 1999, the Corporation conducted management visits
in conjunction with the Corporation's Pacific Cluster Area Manager. Also, a Senior
Grants Officer conducted an in-depth site visit during the last week of April 1999. Since
June 1999, when the Corporation limited Oregon's access to its grant funds, the
ArneriCorps program staff have made several additional visits to Oregon.

In addition to planned site visits and other reviews, we will also request that the Oregon
Commission provide semi-annual reports on their actions to correct conditions cited in
the OIG pre-audit survey.


                                                                                               1201 New Yo* Avenue. N W
                                                                                               Washington. DC 20525
                                                                                               Telephone 20240bSWJ



                                                                                               GettingTbinge Done.
                                                                                               AmeriCorps. National Senrice
                                                                                               Learn and Serve Amenca
                                                                                               National Senior Service Corps
